FDIC Office of Inspector General Press Release: Oxon Hill Woman Pleads Guilty in Two Separate Mortgage Fraud Schemes Resulting in Losses of Over $2.5 Million
News Release
United States Department of Justice
United States Attorney's Office
Contact: Vickie Leduc
Phone: (410) 209-4885
FOR IMMEDIATE RELEASE
July 12, 2013
OXON HILL WOMAN PLEADS GUILTY IN TWO SEPARATE MORTGAGE FRAUD SCHEMES RESULTING IN LOSSES OF OVER $2.5 MILLION
Baltimore, Maryland - Rhonda Scott, age 52, of Oxon Hill, Maryland, pleaded guilty today before U.S. District Judge James K. Bredar to conspiring to commit wire fraud in connection with two separate mortgage fraud schemes which resulted in losses of over $2,500,000.
The guilty plea was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Special Agent in Charge David Beach of the United States Secret Service â Washington Field Office; Inspector General Jon T. Rymer of the Federal Deposit Insurance Corporation; Special Agent in Charge Joe Clarke of the Housing and Urban Development Office of Inspector General - Office of Investigations; Special Agent in Charge Stephen E. Vogt of the Federal Bureau of Investigation; Special Agent in Charge Gene E. Morrison, Washington Field Office, U.S. Department of Justice Office of the Inspector General; Howard County Police Chief William McMahon; Acting Special Agent in Charge Lisa Quinn of the United States Secret Service â Baltimore Field Office; and Howard County Stateâs Attorney Dario Broccolino.
According to her plea, beginning in 2008, Scott agreed to participate in several fraudulent real estate transactions that settled at M&R Title, Inc., and Sanford Title Services LLC.  The fraudulent transactions at each title company were part of different conspiracies, both of which Scott joined.  In both schemes, Scott facilitated deals between her co-conspirators, identified and recruited individuals that could be parties to the real estate transactions generating proceeds for the co-conspirators, received proceeds of the fraudulent transactions through a shell company designed to disguise her receipt of the funds, sent money to co-conspirators and identified mortgage transactions that the co-conspirators could use to enrich themselves.
As part of the M&R Title conspiracy, the co-conspirators deceived buyers, sellers and lenders to make it appear to sellers that they were selling their property at a low price, and to buyers and lenders that the property was being sold at a higher price.  The co-conspirators created paperwork for two different sales of the property at the same time.  The first sale was fraudulent because it was backdated, the buyer was planning to immediately flip the property in a subsequent sale and the settlement statement listed a fake hard money loan.  The second sale involved a significantly increased sales price and the settlement statement showed a significant sum being disbursed to the hard money lender as a payoff of an existing lien, but in reality those funds would be used for improper disbursements to the co-conspirators.
With respect to the Sanford Title conspiracy, improper disbursements were made from the title company to Scott and others.  The conspirators engaged in many fraudulent techniques, including: short sales in which the property would be sold for a higher price than the seller was aware of; sales of properties not owned by the seller including properties Scott purported to own but did not own at the time of settlement; real estate transactions in which there were multiple sales of the same property at the same time; the seller and/or buyer were shown difference settlement statements and the conspirators used the difference between the figures in the two statements to enrich themselves; and Sanford Title did not disburse money that should have been paid to lien holders and instead diverted a portion of those funds to co-conspirators.
Both of the M&R Title and Sanford Title fraud schemes involved at least 25 victims, including lenders, sellers and buyers of real estate, title insurance companies and lien holders.  The reasonably foreseeable loss associated with Scottâs conduct is at least $2.5 million.
Scott will be required to forfeit at least $2.7 million and pay restitution of at least $1 million.
Scott faces a maximum penalty of 30 years in prison and a $1 million fine for conspiring to commit wire fraud.  No sentencing date has been scheduled.
Emeka Udeze, age 38, of Bowie, Maryland, Shola Risikat Balogun, age 47, of Upper Marlboro, and Niesha Williams, age 33, of Fort Washington, Maryland, each previously pleaded guilty to their role in the fraud schemes.  No sentencing date has been scheduled for them at this time.
The Maryland Mortgage Fraud Task Force was established to unify the agencies that regulate and investigate mortgage fraud and promote the early detection, identification, prevention and prosecution of mortgage fraud schemes. This case, as well as other cases brought by members of the Task Force, demonstrates the commitment of law enforcement agencies to protect consumers from fraud and promote the integrity of the credit markets. Information about mortgage fraud prosecutions is available www.justice.gov/usao/md/Mortgage-Fraud/index.html.
Todayâs announcement is part of efforts underway by President Obamaâs Financial Fraud Enforcement Task Force (FFETF) which was created in November 2009 to wage an aggressive, coordinated and proactive effort to investigate and prosecute financial crimes. With more than 20 federal agencies, 94 U.S. attorneysâ offices and state and local partners, itâs the broadest coalition of law enforcement, investigatory and regulatory agencies ever assembled to combat fraud. Since its formation, the task force has made great strides in facilitating increased investigation and prosecution of financial crimes; enhancing coordination and cooperation among federal, state and local authorities; addressing discrimination in the lending and financial markets and conducting outreach to the public, victims, financial institutions and other organizations. Over the past three fiscal years, the Justice Department has filed more than 10,000 financial fraud cases against nearly 15,000 defendants including more than 2,700 mortgage fraud defendants. For more information on the task force, visit www.stopfraud.gov.
United States Attorney Rod J. Rosenstein commended the U.S. Secret Service, FDIC, HUD-OIG, FBI, Department of Justice OIG, Howard County Police Department, Secret Service and Howard County Stateâs Attorneyâs Office  for their work in the investigation.   Mr. Rosenstein thanked Assistant United States Attorney Harry Gruber and Special Assistant United States Attorney Colleen McGuinn assigned to this case from the Howard County Stateâs Attorneyâs Office, who are prosecuting the case.